we are not responsible for goods or services that you purchase with
the Card unless: (a) your purchase was made in response to an
advertisement we sent or participated in sending you; or (b) your
purchase cost more than $50 and was made from a plan merchant
in your state or within 100 miles of your home; and only if you
have made a good faith attempt, but have been unable to obtain
satisfaction from the plan merchant. You must resolve all other
disputes directly with the plan merchant. We do not warrant any
merchandise or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed
to you at the most recent postal address or e-mail address (if
you have elected to receive such documents via electronic
means) you have given us. Notice sent to any one of you will be
considered notice to all.
Notification of Address Change. You will notify us promptly
if you change your address for any reason. In order to prevent
identity theft, your identity may need to be verified before we act
upon the notification.
Copy Received. You acknowledge that you have received a copy
of this Agreement.
Governing Law. This Agreement shall be construed under federal
law and state law in the state in which we are primarily located, and
the venue shall be located in the county and state in which we are
primarily located. Operating regulations of Visa may also apply.
This Agreement is the contract that applies to all transactions
even though the sales, cash advance, convenience check, credit
or other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a
final expression of the agreement between you and the Credit
Union. This written agreement may not be contradicted by
evidence of any oral agreement.
Contact Us. Balance information may be obtained by calling our
automated Express Line at 1-800-829-7676 or via our website
at www.pmcu.com. An access code is required for both of these
options. You may also contact our Call Center during business
hours to speak with an agent at 1-800-736-4500. Our business
days and hours are Monday through Friday (7:00 am to 6:00 pm)
and Saturday (9:00 am to 4:00 pm) excluding holidays.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the
address(es) listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
4. Your signature.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do, we are not required to investigate any potential
errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase. To use this
right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at the address(es) listed
on your statement.
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.

FI14220 Rev 8-2017
©2009 Securian Financial Group, Inc. All rights reserved.

M-122878

1278 Rocky Point Drive • Oceanside, CA 92056-5867
Toll Free (800) 736-4500 • Fax (877) 789-PMCU

VISA CREDIT CARD AGREEMENT
In this Agreement, “You” and “your” mean any person who accepts
this Agreement or uses the Card. The “Card” means any credit
card issued to you or those designated by you under the terms
of this Agreement. “We”, “us”, “our” and the “Credit Union” means
Pacific Marine Credit Union or its successors. By using your card,
you agree to all of the terms and conditions set forth herein.
THE GRANTING OF THIS SECURITY INTEREST IS A
CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS
AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT
ACCOUNTS YOU HAVE WITH US NOW AND IN THE
FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED
UNDER THIS AGREEMENT. YOU ALSO AGREE THAT WE
HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE
CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any
other account that would lose special tax treatment under state
or federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans
will also secure your obligations under this Agreement, unless
that other collateral is your principal residence or non-purchase
money household goods.
Using Your Card. You can purchase or lease goods and services
from any merchant who honors your Card. For Platinum, Classic,
and Signature Reward Cards, your cash advance limit is 50%
of your credit limit. For Secured Cards, you may obtain cash
advances and balance transfers up to your maximum credit limit.
You agree not to present your Card or obtain a cash advance
for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make
immediate payment sufficient to bring the balance below the credit
limit. Certain purchases and cash advances require authorization
prior to completion of the transaction. In some cases, you may be
asked to provide identification. If our system is not working, we
may not be able to authorize a transaction, even though you have
sufficient credit available. Also, for security reasons, we may block
the use of your Card in certain countries or geographic areas. We
will have no liability to you or others if any of these events occur.
Personal Identification Number (PIN). We may issue a
Personal Identification Number (PIN) for use with your Card. This
PIN is confidential and should not be disclosed to anyone. You
may use your PIN and your Card to access your account, and
all sums advanced will be added to your account balance. In the
event a use of your PIN constitutes an Electronic Funds Transfer,
the terms and conditions of your Electronic Funds Transfer
Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all

purchases, cash advances, and balance transfers made by you
or anyone whom you authorize to use the Card; (b) all Interest
Charges and all other charges or fees; (c) collection costs and
attorney’s fees as permitted by applicable law, and any costs
incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you.
Illegal Transactions. You agree that your Card and account
will not be used to make or facilitate any illegal transactions as
determined by applicable law; and that any such use will constitute
an event of default under this Agreement. We may decline any
transaction that we believe to be illegal under applicable law,
including but not limited to any transaction involving or relating to
any gambling activity. You agree that we will have no liability or
responsibility for any such use by you or any authorized user(s); or
for declining any such transaction. You further agree to indemnify
and hold us harmless from any suits, liability, damages or adverse
action of any kind that results directly or indirectly from such illegal
use. You promise to pay us any and all amounts owing on your
Card for any transactions made by you, even if the transaction is
determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and
severally, for the repayment of amounts owed, regardless of who
initiated any transaction under the account.
Others Using Your Account. If you allow anyone else to use
your account, you will be liable for all credit extended to such
persons. You promise to pay for all purchases and advances
made by anyone you authorize to use your account, whether or
not you notify us that he or she will be using it. If someone else is
authorized to use your account and you want to end that person’s
privilege, you must notify us in writing, and if he or she has a
Card, you must return that Card with your written notice for it to
be effective.
Ownership of Card. Your Card remains our property and may be
cancelled by us at any time without notice. You agree to surrender
your Card and to discontinue use of the account immediately
upon our request.
Interest Charges. You agree to pay interest at the rate(s)
disclosed to you at the time you open your account and as may
be changed from time to time in accordance with applicable
law. Average Daily Balance including new transactions: Interest
Charges will accrue on your average daily balance outstanding
during the month. To get the average daily balance, we take
the beginning balance each day, add any new purchases,
cash advances, balance transfers or other advances, and debit
adjustments and subtract any unpaid late charges. This gives us
the daily balance. Then, we add up all the daily balances for the
billing cycle and divide that by the number of days in the billing
cycle. We then multiply that by the periodic rate corresponding to
the Annual Percentage Rate on your account.
Grace Period on Purchases Only: You can avoid Interest Charges
on purchases by paying the full amount of the new balance for
purchases each month by the date on which the payment is due.
Otherwise, the new balance of your account, and subsequent
advances from the date they are posted to the account, will be
subject to an Interest Charge. You cannot avoid Interest Charges
on cash advances and balance transfers; even if you pay the entire
cash advance balance or balance transfer balance by the payment
due date, you will incur the Interest Charges accrued from the date
the cash advance or balance transfer is posted to your account.
Fees. In addition to the Interest Charges set forth above, you
agree to also pay any and all fees that you incur as disclosed to

you on your Truth-in-Lending Statement or similar disclosures (as
may be amended from time to time), or as disclosed to you during
the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use
Occurs. You agree to notify us immediately if your Card is ever
lost or stolen or if an unauthorized use may have occurred.
“Unauthorized use” means the use of the Card by someone other
than you who does not have actual, implied or apparent authority
for such use, and from which you receive no benefit. The telephone
number to call is (800) 736-4500, during standard business hours,
or (800) 682-6075, after hours, holidays and weekends. You
agree to follow up your call with notice in writing to us at: Card
Services Department, PACIFIC MARINE CREDIT UNION, 1278
ROCKY POINT DRIVE, OCEANSIDE, CA 92056-5867. You also
agree to assist us in determining the facts, circumstances and
other pertinent information relating to any loss, theft or possible
unauthorized use of your Card and comply with such procedures
as we may require in connection with our investigation. You will be
liable for any unauthorized use only if we can prove that you were
negligent in your use or handling of your Card, or if we can prove
that you used your Card fraudulently.
Minimum Payment Due; Crediting of Payments. Payments
are due in the amount and on the date disclosed on your billing
statement. If your payment is received by us on a business day at
the address and by the time designated on the billing statement, it
will be credited to your account on the date of receipt. If payment
is made at any location other than the address designated on the
periodic statement, credit for such payment may be delayed up to
five (5) days. Payments will be applied in any order we determine,
subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs.
You will be in default if: (1) you fail to make any payment on
time; (2) if you fail to keep any promises you have made under
this Agreement or under other Agreements you have with us;
(3) if you die; (4) if you file a petition in bankruptcy or have a
bankruptcy petition filed against you, or if you become involved
in any insolvency, receivership or custodial proceeding; (5) if
anyone attempts to take any of your funds held by us via legal
process or if you have a judgment or tax lien filed against you;
(6) if you make any false, inaccurate, or misleading statements in
any credit application or credit update; or (7) if we, in good faith,
believe that your ability to repay what you owe is or soon will be
impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate
payment of your full account balance without giving you notice. If
immediate payment is demanded, you agree to continue paying
interest charges and fees until what you owe has been paid, and
any shares that were given as security for your account may be
applied towards what you owe. You agree to pay all reasonable
costs of collection, including court costs and attorney’s fees,
and any costs incurred in the recovery of the Card, subject to
applicable law. Even if your unpaid balance is less than your
credit limit, you will have no credit available during any time that
any aspect of your account is in default.
Additional Benefits/Card Enhancements. We may from time to
time offer additional services to your Account at no additional cost
to you. You understand that we are not obligated to offer such
services and may withdraw or change them at any time.
Convenience Checks. We may, at our discretion, issue checks
to you which may be used for any purpose other than making a
payment for credit to your account. By signing such check, you

authorize us to pay the item for the amount indicated and post
such amount as a cash advance to your account. We do not have
to pay any item which would cause the outstanding balance in
your account to exceed your credit limit.
Credit Information. We may from time to time request personal
information from you or obtain credit reports from the credit
reporting agencies for the purpose of updating your credit
status. Your failure to provide such information when requested
by us may result in suspension of credit privileges under this
Agreement, including your ability to obtain any future advances by
any means. You authorize us to investigate your credit standing
when opening or reviewing your account. You authorize us to
disclose information regarding your account to credit bureau and
creditors who inquire about your credit standing.
Foreign Transactions; Currency Conversion. Purchases
and cash advances made in foreign currencies will be billed to
you in U.S. dollars. The conversion rate in dollars will be a rate
selected by the card company from a range of rates available in
wholesale currency markets for the applicable central processing
date, which rate may vary from the rate the card company
itself receives, or the government-mandated rate in effect for
the applicable central processing date in each instance. All
transactions processed outside of the United States (which
may include internet transactions) will be charged a foreign
transaction fee in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).
Termination; Change-in-Terms. We may, by written notice,
terminate this Agreement at any time, subject to applicable law.
You may terminate this Agreement by written notice. Termination
by either party shall not affect your obligation to repay any
payments made for your account resulting from use of the Card as
well as Interest Charges and fees incurred. We may change the
terms of this Agreement, including the method of calculating the
periodic rate, at any time, by written notice, subject to applicable
law. Use of the Card constitutes agreement and acceptance of
any change in terms, unless applicable law requires otherwise.
Our failure to exercise any of our rights or to take any action
shall not constitute a waiver of those rights, or an amendment or
change in any of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction
of your balance will increase your total interest costs. Partial
payments or prepayments will not delay your next scheduled
payment – you will still need to make the minimum scheduled
payment by the next scheduled due date to keep your account
current. We may accept late payments, partial payments, checks
or money orders marked “payment in full” and such action shall
not constitute final settlement of your account or a waiver or
forgiveness of any amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related
agreement if we delay enforcing them. If any provision of this
or any related agreement is determined to be unenforceable or
invalid, all other provisions remain in full force and effect.
Returns and Adjustments. Merchants and others who honor
the Card may give credit for returns or adjustments, and they
will do so by submitting a credit slip which will be posted to your
account. If your credits and payments exceed what you owe us,
the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1 or more, it will be
refunded upon your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of
any plan merchant or financial institution to honor your Card. Also,

